                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A07020010                                                                     Page 1 of 1



         We received an allegation of a potential intellectual property theft by the subject1in a proposal2
         submitted to NSF, with the alleged source being a proposal previously submitted to NSF.~
         Examination of the two proposals show that there is some overlap in text and figures, and a small
         apparent overlap in research plans. However, the subject is a co PI on the alleged source
         proposal, is entitled to reuse material from it, and therefore no factual basis supports further
         pursuit of this inquiry.

                    Accordingly, this case is closed.




                                                                                                     I




          1
              Redacted.
          2
              Redacted.
              Redacted.



NSF OIG Form 2 (1 1/02)
